<html>
<title> - STRENGTHENING THE INTEGRITY OF THE STUDENT VISA SYSTEM BY PREVENTING AND DETECTING SHAM EDUCATIONAL INSTITUTIONS</title>
<body><pre>[Senate Hearing 112-925]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-925

 STRENGTHENING THE INTEGRITY OF THE STUDENT VISA SYSTEM BY PREVENTING 
              AND DETECTING SHAM EDUCATIONAL INSTITUTIONS

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION,
                      REFUGEES AND BORDER SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2012

                               __________

                          Serial No. J-112-88

                               __________

         Printed for the use of the Committee on the Judiciary

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       U.S. GOVERNMENT PUBLISHING OFFICE 

93-287 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

       Subcommittee on Immigration, Refugees and Border Security

                   CHUCK SCHUMER, New York, Chairman
PATRICK J. LEAHY, Vermont            JOHN CORNYN, Texas
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa
DICK DURBIN, Illinois                ORRIN HATCH, Utah
AL FRANKEN, Minnesota                JON KYL, Arizona
RICHARD BLUMENTHAL, Connecticut      JEFF SESSIONS, Alabama
               Stephanie Martz, Democratic Chief Counsel
                 Matt Johnson, Republican Chief Counsel
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Schumer, Hon. Chuck, a U.S. Senator from the State of New York...     1
Grassley, Hon. Charles, a U.S. Senator from the State of Iowa....     3
    prepared statement...........................................    22
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     3

                               WITNESSES

Witness List.....................................................    21
Gambler, Rebecca, Acting Director, Homeland Security and Justice, 
  U.S. Government Accountability Office, Washington, DC..........     5
    prepared statement...........................................    25
Woods, John P., Assistant Director, National Security 
  Investigations, Homeland Security Investigations, U.S. 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security, Washington, DC..............................     6
    prepared statement...........................................    37

                               QUESTIONS

Questions submitted by Senator Grassley for Rebecca Gambler......    47
Questions submitted by Senator Grassley for John P. Woods........    48

                                ANSWERS

Responses of Rebecca Gambler to questions submitted by Senator 
  Grassley.......................................................    50
Responses of John P. Woods to questions submitted by Senator 
  Grassley (redacted)............................................    55

 
 STRENGTHENING THE INTEGRITY OF THE STUDENT VISA SYSTEM BY PREVENTING 
              AND DETECTING SHAM EDUCATIONAL INSTITUTIONS

                              ----------                              


                         TUESDAY, JULY 24, 2012

                               U.S. Senate,
 Subcommittee on Immigration, Refugees, and Border 
                                          Security,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Subcommittee, presiding.
    Present: Senators Schumer, Feinstein, and Grassley.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Chairman Schumer. The hearing will come to order, and I 
want to thank my colleagues for coming. The majority of people 
here are Chucks.
    Senator Feinstein. Are what?
    Chairman Schumer. Chucks: Chuck Schumer, Chuck Grassley.
    [Laughter.]
    Chairman Schumer. Okay. All right. Well, thank you and good 
morning. Today's hearing is on strengthening the integrity of 
the student visa system by preventing and detecting sham 
educational institutions, and I want to thank both my 
colleagues, the three of us, along with Senator McCaskill, who 
asked for a GAO report, oh, about nine months ago. And I think 
the GAO is now going to report to us. I have seen it, and I 
think you have done a very good job.
    It is an incredibly important topic. There are currently 
more than 850,000 active foreign students in the United States 
enrolled at over 10,000 schools, and by and large, the student 
visa system provides an enormous benefit to the U.S. It allows 
us to attract the world's top talent to our country to study 
and hopefully to live here and create new companies, 
technologies, and jobs. Foreign students also stimulate our 
economy by spending money in our stores, restaurants, and 
providing our universities with additional capital in the form 
of full tuition payments.
    But as with all our immigration laws, we must balance the 
clear economic benefits of the Student Visa Program with the 
need to keep our country secure. It is well known by now that 
one of the September 11th terrorists entered the country on a 
student visa and subsequently attended flight school. Two of 
the September 11th terrorists received visitor visas and after 
entering the country illegally attended flight schools. And 
recently there has been a recurring problem in our immigration 
system; that is, the illegal use of student visas by foreign 
nationals to attend sham schools. These sham schools are not 
real institutions of learning, but rather operate solely for 
the purpose of manipulating immigration law to admit foreign 
nationals into the country.
    The latest phenomenon occurs in my colleague Senator 
Feinstein's State, the Tri-Valley University in Pleasanton, 
California--I know she has been involved in this--where over 
1,500 students from foreign countries obtained visas to enroll 
in an unaccredited school that failed to provide education.
    In my home State of New York, an English language school 
known as ``Accent on Language'' was recently shut down in April 
for being a sham school.
    So to get hold of the problem, Senators Feinstein, 
Grassley, McCaskill, and I asked the GAO to study the Student 
Visa Program to determine whether we are doing a good enough 
job to stop sham schools, and what the GAO found was very 
troubling.
    GAO found that ICE has not implemented fraud prevention 
practices to verify the legitimacy and eligibility of schools 
giving out student visas, both during their initial 
certification and after these schools begin accepting foreign 
students.
    GAO found that a significant number of schools certified to 
give out visas to international students are not even licensed 
by the State in which they operate.
    Most shockingly, of 434 flight schools that provide student 
visas, an astounding 167, 38 percent--let me repeat that--38 
percent are not accredited by the FAA. This finding is 
especially worrisome since two of the 9/11 hijackers 
successfully applied for student visas to attend flight 
schools.
    GAO's report found out a lot about the Tri-Valley case and 
that it is part of a larger trend of sham schools defrauding 
the Student Visa Program.
    In 2004, we required DHS to complete an audit of the 10,000 
schools in the U.S. that provide student visas. GAO found that 
eight years after the deadline for the completion of the audit, 
federal authorities only recertified 19 percent of the visa-
issuing schools.
    In light of this report, Senators Grassley, Feinstein, 
McCaskill, and I will be introducing legislation that will 
combat sham schools. Our legislation, when passed, will achieve 
the following objectives: Require flight schools to be 
accredited by the FAA; require all schools to show proof of 
appropriate State licensure before they are able to give 
student visas; increase penalties for directors, officers, and 
managers of sham universities; and prevent top officials 
affiliated with a university shut down by ICE from being a 
director, officer, or manager of another school to avoid them 
opening up a new one after the old one is closed.
    It will require the officer at each university in charge of 
helping ICE give out student visas and ensure compliance to 
have a background check, undergo training, and go through e-
verify before they can serve as a designated school officer; 
and, finally, require ICE to visit every non-accredited school 
that gives students visas within a year of enactment to ensure 
legitimacy of the school.
    These are much-needed steps that dramatically reduce fraud 
and restore confidence in our Student Visa Program.
    With that, let me call on Senator Grassley, and then I will 
call on Senator Feinstein, each for opening statements.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. You have had so many factual statements 
that I am not going to repeat, so I will put that portion of my 
statement in the record.
    Chairman Schumer. Without objection.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Senator Grassley. I will just give a short summation here.
    I am glad that we have Mr. Woods here from Immigration and 
Customs Enforcement to explain how two departments under his 
purview have allowed for sham schools to operate. I want to 
hear assurances that interagency disagreements are a thing of 
the past and that counterterrorism officials and program 
officers are working together to root out fraud.
    I want to know what changes have been made by Secretary 
Napolitano's Department since the report was initiated, 
including efforts to rein in crooked designated school 
officials.
    I want to know why the Department has not yet required 
background checks of designated school officials and why the 
Department has not yet changed its rules to kick a school out 
of the program if it is not complying.
    I want to know why non-FAA-certified schools continue to be 
a part of the program, continue to have access to the SEVIS 
data base, and are still allowed to bring in foreign students.
    I am also calling on Secretary Napolitano to immediately 
improve the oversight of schools and implement the GAO 
recommendations. The Department needs to get its act together, 
complete the recertification process, and use the resources 
more effectively.
    Additionally, and last, I am interested in hearing what 
legislative changes need to be made. Senator Schumer has 
already talked about the proposed legislation. This hopefully 
can be enacted promptly, and so far it looks like it is going 
to be in a bipartisan manner, and I hope that will continue so 
that we can salvage the integrity of our Foreign Student Visa 
Program and ensure safety for our citizens.
    Thank you.
    Chairman Schumer. Thank you, Senator Grassley.
    Senator Feinstein.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman, first 
of all, for this hearing, you and Senator Grassley for the 
willingness to work together, and, I think, the recognition 
that we have a continuing problem.
    I started on this right after 9/11, and looking at sham 
schools, there was one right next to my office in San Diego, 
and my staff pointed it out. And a number of arrests were made 
in California in the San Diego area.
    The thing is it continues on, and if you look at the Tri-
Valley situation, which is 10 years after 9/11--and as you 
said, 38 percent--well, let me not confuse it, but let me say 
something about Tri-Valley.
    School officials enrolled 1,500 foreign students until a 
federal investigation exposed the school as a scam in February 
2011. The school was authorized to only accept 30, but by May 
2010, when ICE began its investigation, they had 939 
international students, and by the fall of 2010, there were 
1,555 students for a school that did not exist. They were 
caught giving student visas to undercover agents posing as 
foreign nationals who explicitly professed no intention of 
attending classes. So the federal agents said they did not 
intend to attend classes, but they still were accepted.
    Now, the 9/11 hijackers would not have been able to carry 
out attacks in the United States if they had been unable to 
enter the country from the beginning. They received valid visas 
to enter the United States in order to harm our Nation. And one 
of them, Hani Hanjour, entered the United States on a student 
visa in December 2000 to attend an English-language school in 
my backyard, Oakland, California. After entering the United 
States, he never attended the English-language school but 
instead took refresher pilot training lessons at a flight 
school in Arizona. Flight schools were teaching people how to 
take off but not to land, and no one thought it was strange.
    And I think what Senator Schumer has just said, that 38 
percent of these flight schools do not have the required FAA 
certification, there ought to be a strong penalty for that. 
They ought to be prohibited from operating without FAA 
certification and supervision, in my view.
    So now the Student Exchange Visitor Program is often 
unaware of when the FAA revokes certification for flight 
training providers, and we understand that your agency is 
working to correct this problem.
    I think the time has come, Senator Grassley and Mr. 
Chairman, to really get tough. We have had 10 years. It has 
been ``try and fail.'' And I am for some very strict criminal 
penalties. So I look forward to working with you in this 
regard.
    Chairman Schumer. Thank you, Senator Feinstein. We 
appreciate your long-term leadership on this issue, and with 
this legislation maybe we can finally do what is needed to be 
done, and the report helps importune us on.
    We now have two witnesses today. The first is Rebecca 
Gambler. She is the Director of Homeland Security and Justice 
Issues at the GAO, the Government Accountability Office, which 
did our report. She joined GAO in 2002, has worked on a wide 
range of issues related to homeland security and justice, 
including border security, immigration, DHS management and 
transformation, and I have heard you testify before, and you 
are excellent. You know, you are the best of government 
employees, hard-working, and we are glad that you are in the 
GAO. And I am also proud that you have three master's degrees, 
one of which is from Syracuse University School of 
International Relations.
    John Woods is the Assistant Director of National Security 
Investigations for the Immigration and Customs Enforcement, 
ICE, and he, I am proud to say, is a native New Yorker. I do 
not want to be too chauvinistic here. If you have California or 
Iowa connections, please state them in your opening remarks. 
But, in any case, he is a career enforcement officer, began in 
1987 as an INS special agent. For the last 25 years, he has 
worked his way up to his current position. He is now chief of a 
450-person division, manages a $160 million operational budget 
which oversees ICE's investigative, regulatory, and 
technological programs. He is in charge of targeting 
transnational and national security threats arising from 
illicit travel, trade, and finance.
    So, with that, each of your statements will be read into 
the record, and we are first going to call on--it is logical to 
have the issuer of the report come first and then the response 
from Mr. Woods.
    Ms. Gambler, you may proceed.

    STATEMENT OF REBECCA GAMBLER, ACTING DIRECTOR, HOMELAND 
 SECURITY AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
                        WASHINGTON, D.C.

    Ms. Gambler. Good morning, Chairman Schumer and Members of 
the Subcommittee. I appreciate the invitation to testify at 
today's hearing to discuss GAO's work on the Student and 
Exchange Visitor Program, or SEVP.
    Within the Department of Homeland Security, ICE is 
responsible for managing the program to ensure that foreign 
students comply with the terms of their admission. ICE also 
certifies schools to be eligible to enroll foreign students in 
academic and vocational programs. As of January 2012, more than 
850,000 active foreign students were enrolled at over 10,000 
certified schools in the United States.
    I would like to focus my remarks this morning on two areas 
related to ICE's management of SEVP. First, I will discuss the 
extent to which ICE has identified and assessed program risks. 
Second, I will discuss the extent to which ICE has implemented 
procedures to detect and prevent fraud and noncompliance on the 
part of certified schools.
    With regard to the first area, ICE does not have a process 
to identify and assess risks posed by schools in SEVP. In 
particular, we reported that SEVP has not evaluated information 
on prior and suspected cases of school fraud and noncompliance 
to identify lessons learned from such cases. For example, as of 
March 2012, ICE reported that it had withdrawn 860 schools from 
the program since 2003, at least 88 of which were withdrawn for 
noncompliance issues. However, SEVP has not evaluated these 
schools' withdrawals to determine potential trends in their 
noncompliant activities. We reported that such information 
could help SEVP focus its compliance efforts.
    Additionally, SEVP has not obtained and analyzed 
information from ICE criminal investigators on school fraud 
cases. Information from investigations could help provide SEVP 
with insights on the characteristics of schools that have 
committed fraud and the nature of those schools' fraudulent 
activities. ICE is beginning to study the potential risks posed 
by schools in SEVP, but these efforts are in the early stages 
of implementation.
    With regard to the second area, we identified weaknesses in 
ICE's monitoring and oversight of SEVP-certified schools 
related to four key program controls.
    First, we reported that ICE has not consistently verified 
certain evidence initially submitted by schools in lieu of 
accreditation.
    Secondly, ICE has not consistently maintained certain 
evidence of selected schools' eligibility for SEVP. 
Specifically, in our random sample of 50 school case files, 30 
files did not contain at least one piece of required evidence, 
and ICE was unable to produce two school case files.
    Third, ICE does not have a process to monitor schools' 
State licensing status and non-language schools' accreditation 
status.
    Finally, we reported that some SEVP-certified schools that 
offer flight training do not have the FAA certifications 
required by SEVP policy to be eligible to offer flight training 
to foreign students. The specific FAA certifications are 
required by SEVP because FAA directly oversees these flight 
schools on an ongoing basis. As of December 2011, we found that 
about 38 percent of SEVP schools certified to offer flight 
training to foreign students did not have the required FAA 
certifications.
    ICE is taking actions to address these issues, such as 
working with the FAA to determine which schools have not met 
the requirements, and taking withdrawal actions against those 
schools as appropriate.
    In closing, ICE aims to facilitate study in the United 
States for hundreds of thousands of foreign students each year. 
Effective oversight of SEVP entails balancing this objective 
against the program's potential risks. ICE has taken some steps 
to assess program risks and develop policies for certifying and 
monitoring schools. However, we reported that the program 
continues to face significant challenges and that ICE should 
take additional actions to improve its ability to prevent and 
detect potential school noncompliance and fraud. We have made a 
number of recommendations to ICE to strengthen its management 
and oversight of the program, and ICE has agreed with our 
recommendations.
    This concludes my oral statement, and I would be pleased to 
answer any questions the Members may have.
    [The prepared statement of Ms. Gambler appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Ms. Gambler.
    Mr. Woods.

   STATEMENT OF JOHN P. WOODS, ASSISTANT DIRECTOR, NATIONAL 
SECURITY INVESTIGATIONS, HOMELAND SECURITY INVESTIGATIONS, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
              HOMELAND SECURITY, WASHINGTON, D.C.

    Mr. Woods. Chairman Schumer, Ranking Member Grassley, and 
Senator Feinstein, thank you for the opportunity to discuss the 
Student and Exchange Visitor Program, or SEVP, and our response 
to the GAO findings in its recently released report.
    SEVP is one area that ICE continues to prioritize, and 
after reviewing GAO's recommendations, we have already made 
progress in implementing them. SEVP is committed to maintaining 
national security while keeping the international student and 
exchange visitor visa issuance process efficient for schools 
and students.
    As you know, SEVP, within ICE's Homeland Security 
Investigations Directorate, is funded by fees collected from 
students, exchange visitors, and participating schools. It 
manages information on nonimmigrants whose primary reason for 
coming to the United States is to study in a U.S. institution 
certified for inclusion in the Student and Exchange Visitor 
Information System, or SEVIS. This data base tracks foreign 
students, exchange visitors, and their dependents during their 
authorized stays in the United States. SEVIS also monitors the 
schools that have been approved by DHS to enroll foreign 
students and the exchange visitor programs designated by the 
Department of State to sponsor these visitors. SEVP regulates 
schools' eligibility to enroll foreign individuals for academic 
and vocational training purposes and manages the participation 
of SEVP-certified schools in the program and nonimmigrant 
students in the F, J, and M visa classifications and their 
dependents.
    HSI's Counterterrorism and Criminal Exploitation Unit, or 
CTCEU, is the first national program dedicated to the 
enforcement of nonimmigrant visa violations. SEVP and CTCEU 
execute complementary missions to regulate foreign students and 
exchange visitors and to proactively develop investigations 
that bolster our national security.
    Each year, the CTCEU analyzes the records of hundreds of 
thousands of potential status violators using information from 
SEVIS and the US-VISIT data base, along with other information. 
The CTCEU resolves these records by further identifying 
potential violations that would warrant field investigations, 
and many times resulting in establishing compliance, or 
establishing departure dates from the United States, or 
effecting the arrest and removal of an individual violator.
    In its report, GAO made eight recommendations with which we 
have concurred.
    First, the GAO recommended an increased focus on detecting 
fraudulent schools. The collaboration between CTCEU and SEVP 
facilitates processing for millions of legitimate foreign 
students while ensuring that those who want to defraud our 
systems or do us harm are not allowed to remain in the United 
States.
    To combat student visa fraud, we established a School 
Exploitation Section of CTCEU and later the SEVP Analysis and 
Operations Center, which supports HSI's main goal of preventing 
exploitation of legitimate student pathways into the United 
States and school fraud activity.
    As GAO noted, collaboration between SEVP and CTCEU is 
essential to identify and close loopholes in the issuance of 
student and exchange visitor visas. SEVP and CTCEU have a 
process to coordinate on criminal investigations of 
nonimmigrant students, designated school officials, and SEVP-
certified schools in order to provide law enforcement with 
high-quality, timely, analytical information and service 
support for school compliance and foreign student issues.
    The GAO also identified the need for increased 
communication regarding potential criminal cases. SEVP notifies 
CTCEU of all schools that SEVP places on its compliance list. 
Schools are reviewed based on leads from SEVP and HSI field 
offices, our own internal risk analysis, or information 
received through other means, such as tips from school 
employees or students. Schools are vetted based on a complex 
list of risk factors, and SEVP and CTCEU continue to work to 
develop additional criteria and ways to strengthen the process 
so that the programs can more aggressively identify fraud among 
noncompliant schools.
    As GAO outlined in its report, flight schools have a unique 
set of risks. SEVP is currently working with the FAA to ensure 
that all SEVP-certified flight schools obtain the required FAA 
certification.
    In coordination with the FAA, SEVP has developed a list of 
all SEVP-certified flight schools that do not have the required 
certifications. SEVP has contacted those flight schools that do 
not have the required certification and, in consultation with 
the FAA, is developing time frames to require those schools to 
re-obtain their FAA certification. Schools that do not meet the 
time frames will have their SEVP certification withdrawn.
    GAO also noted that determining whether a school meets 
certification or accreditation requirements can be complex and 
may change over time. A key part of SEVP's mission is to 
certify that all enrolled F and M nonimmigrant students are in 
status. With the general exception of English language 
programs, which will be required to be accredited in December 
2013, schools are not required to have national accreditation 
in order to obtain SEVP certification.
    If a petitioning school claims national accreditation, SEVP 
requires evidence of such accreditation. Some States impose 
their own licensing requirements on educational programs. 
Therefore, we are is developing procedures to require 
validation of any State license or other accreditation 
information they provide to us.
    GAO also had recommendations concerning recordkeeping. When 
SEVP was established in 2003, it inherited a large amount of 
decades-old paper records from the former Immigration and 
Naturalization Service, which has presented a challenge in 
terms of records management. SEVP has worked diligently since 
receipt of the more than 10,000 school files to review and 
digitize these historical record. Working through the update 
and recertification process, we are ensuring that these files 
are updated, complete, and correct.
    Again, we appreciate the assistance of GAO's findings, and 
we are working diligently to fully address the remaining 
concerns. With thousands of colleges, universities, and other 
institutions of higher learning in the United States, we remain 
the gold standard in education around the world. While we 
encourage a growing and robust foreign student population, we 
must also maintain our unwavering commitment to protecting our 
Nation's security.
    Again, thank you for the opportunity to testify today, and 
I would be pleased to answer any questions that you have.
    [The prepared statement of Mr. Woods appears as a 
submission for the record.]
    Chairman Schumer. Let me thank both witnesses.
    I will try to keep the questioning to five minutes so that 
we can have second rounds and because Senator Grassley has 
another appointment.
    First, I want to ask each of you, you have heard what our 
bill will do; you have seen our bill. Do you think the 
provisions of the bill will positively address the 
vulnerabilities in the Student Visa Program? And what might you 
add? First, Ms. Gambler.
    Ms. Gambler. We have had a chance to review the provisions 
of the bill, and those provisions certainly address a number of 
areas that we pointed out were challenges in ICE's management 
of the program, including looking at how the accreditation 
process is certified and reviewed by SEVP and also looking at 
the extent to which ICE is monitoring whether or not flight 
schools have the required FAA certification.
    Chairman Schumer. Do you think we are leaving anything out? 
Is there anything that you would add or change in the bill?
    Ms. Gambler. I think the bill certainly addressed the 
different challenges that we pointed out with the program.
    Chairman Schumer. Good. Thank you, Ms. Gambler.
    And what about you, Mr. Woods? I do not know what kind of 
constraints you are under, but what is your--does your 
Department have an opinion on our bill? And do you have a 
personal opinion on our bill?
    Mr. Woods. First of all, I had the chance to review the 
bill, and as a law enforcement agency, we appreciate the 
legislature's efforts to enhance our law enforcement efforts.
    In due time, when it comes out for comment, we would be 
glad to provide an official stance from the agency, but at this 
time I would like to encourage your staff to work with our 
staff to ensure that----
    Chairman Schumer. But do you think it is going in the 
right--this is your own personal opinion. You----
    Mr. Woods. My personal opinion is it is going in the right 
direction, yes.
    Chairman Schumer. All right. Second question--for you, Mr. 
Woods. What is the status of DHS' actions to address 
noncompliant flight schools that remain SEVP certified?
    Mr. Woods. Like I said in my opening statement, we have 
initiated work with the FAA to identify those schools that do 
not have the proper--which would be the 141--classification or 
certification to remain in SEVP, to remain a SEVP-certified 
school.
    As of now, we have identified, of the 469 schools that we 
have SEVP certified for flight training programs, 153 that do 
not have the proper FAA certifications. But when you drill that 
number down further, you will find 30 of these institutions 
have closed completely and are withdrawn from the program; 61 
do not even offer flight training anymore as part of their 
curriculum. Although they have been certified by SEVP to offer 
flight training, they have to take their I-17 and take that off 
their certification process. So that is an update issue.
    Chairman Schumer. Will it interfere with them granting 
visas when they should not? Will that stop them--``interfere'' 
is the wrong word. Will that stop them from granting visas when 
they should not if they do not have flight programs?
    Mr. Woods. They would not be able to provide I-20s to 
students for flight training. They could provide it for other--
many schools that provide flight training----
    Chairman Schumer. I understand. But I am asking will it 
prevent----
    Mr. Woods [continuing]. Along with other----
    Chairman Schumer. Will it prevent them from falsely 
bringing--you know, wrongly bringing people into the country 
who should not be here?
    Mr. Woods. Until their I-17 is updated, no, it will not.
    Chairman Schumer. Okay. Keep going. So those 61 could still 
be committing----
    Mr. Woods. Yes. And we are working with the FAA on the 
remaining schools to determine a time frame on which they can 
re-obtain their----
    Chairman Schumer. So have you closed any new ones? Have you 
closed----
    Mr. Woods. At this point, 32 schools have been closed.
    Chairman Schumer. You closed them or you said 30 closed.
    Mr. Woods. They are closed and out of business. But we did 
not close them, no.
    Chairman Schumer. So what is taking so long? That is my 
question.
    Mr. Woods. We are working with the schools to make sure 
that they update their FAA certification so they can continue 
to bring in students if they wish to, but they have to have the 
right certification. And the FAA process is a time-consuming 
process, apparently.
    Chairman Schumer. Okay. Now, let us see here. I have time 
for one more.
    The Border Security Act required recertification for all 
SEVP-certified schools by May 2004--that is eight years ago--
and every two years thereafter. However, ICE began the first 
recertification cycle in May 2010, and as of March 2012, it 
only recertified 19 percent of the SEVP-certified schools. So 
two questions: As of July 20th, what percentage of schools has 
ICE recertified? What actions, if any, has ICE taken or plan to 
take to expedite this recertification process? You must admit 
it is going at a snail's pace.
    Mr. Woods. Yes, I would admit that. The process going back 
to 2004, SEVP was not correctly funded to initiate a 
recertification program. With the fee rule in 2009, we were 
able to set up and fund the hiring of adjudicators to do the 
recertification process. As of now, we are fully staffed with 
adjudicators to do that process, and we are conducting 
somewhere between 350 and 400 recertifications a month, and we 
are up to 32 percent of the total school population.
    Chairman Schumer. My time has expired, Senator Grassley. We 
will have a second round.
    Senator Grassley. Well, I will follow the same line that 
Senator Schumer did. We have 167 flight training schools that 
did not have proper certification and were still SEVP 
certified. GAO said that ICE may not be aware of the flight 
schools that had their FAA certification revoked. They also 
identified one school that had lost its FAA certification but 
still enrolled foreign students. Obviously this is both a 
national security issue and something that is unacceptable.
    GAO recommended that ICE establish target time frames for 
notifying schools that lack certification so that they can re-
obtain it. Homeland Security officials responded that they 
would work on those time frames and that it could be done by 
September 30th. I do not think this is an issue that should 
take months to resolve. So my question to you, Mr. Woods, and 
if you cannot be specific, I would take an answer in writing: 
What kind of time frames are we talking about? Are we talking 
about a day, a month, a week, or how long? And are they allowed 
to bring in foreign students during that process?
    Mr. Woods. To answer your question, as of right now, we 
have notified every school that has certification to do flight 
training that does not have the proper FAA certification to go 
out and re-obtain their 141 certification. If they do not do 
that forthwith, as I said in my opening statement, they will be 
withdrawn from SEVP through the administrative notice to 
withdraw process.
    Senator Grassley. Are they allowed to bring in foreign 
students during this process?
    Mr. Woods. I think it is under review whether they are 
issuing I-20s for flight training or not, those institutions.
    Senator Grassley. Okay. For both you and Ms. Gambler, 
before I ask a question, I have this lead-in. There are several 
issues regarding the Student and Exchange Visitor Program, 
including lack of coordination within ICE, flight schools, and 
sham universities. On top of that, ICE is forced to verify in 
lieu of letters provided by unaccredited universities. Some 
would say that only accredited schools should be eligible to 
enroll foreign students. Doing so would reduce the workload of 
ICE to focus on accredited schools. It also may have prevented 
the Tri-Valley incident.
    Questions for both of you, two questions. Should 
unaccredited schools be able to participate in the SEVP program 
and bring in foreign students, or should we limit the program 
to accredited schools only? And, second, if we did take 
unaccredited schools out of the program, would you make any 
exceptions to that rule? First, Ms. Gambler.
    Ms. Gambler. It would really be a policy decision on the 
part of Congress or ICE to determine whether or not 
unaccredited schools should be allowed to participate in the 
program. What we looked at as part of our review, and as you 
mentioned, Senator, was that ICE was not consistently verifying 
evidence presented by schools in lieu of certification.
    As part of our review of a random sample of 50 case files, 
we looked at 34 case files for unaccredited schools, and we 
found that in seven of those cases, the case files were lacking 
evidence presented by schools in lieu of accreditation.
    We also found instances during our review of prior cases of 
schools submitting false or fraudulently obtained in lieu of 
letters for accreditation.
    So certainly this is an area of risk to the program, an we 
recommended that ICE do a better job of assessing what the 
risks are to the program and what the characteristics are of 
schools that may be potentially noncompliant or fraudulent. And 
so we made recommendations to ICE to look at that.
    Senator Grassley. Okay. Mr. Woods, would you answer my two 
questions?
    Mr. Woods. Obviously the requirement for higher education 
to be accredited would greatly reduce the risk factors involved 
in school fraud for a SEVP-certified school. Currently the 
greatest concern that we do have is those higher education 
institutions that are not accredited, and we look at them as a 
higher risk factor for compliance and site visits to ensure 
that they are providing education to the students that they 
bring into the United States.
    Senator Grassley. Should you limit the program only to 
accredited schools?
    Mr. Woods. The difficulty in the accreditation process is 
that it changes from State to State. Many States have an 
accreditation process. Some have a licensing process. And we 
are working with each individual State to identify their 
process and our validation techniques to ensure that the 
documents that the schools provide are legitimate. And as I 
said, you know, I think some sort of State or national 
accreditation would reduce the risk factor for fraud.
    Senator Grassley. I think I can wait for round two, so why 
don't you go to Senator Feinstein.
    Chairman Schumer. Okay. Senator Feinstein.
    Senator Feinstein. The way I look at this is it is process, 
process, process, and nothing happens. And it is exactly the 
same as it was before 9/11.
    My view is very clearly--Senator Grassley, you hit the nail 
on the head--a non-accredited school should not be permitted to 
take these students, and if you open a sham school, you go to 
jail. It is just that clear. And I think that is where we have 
to be.
    I think you have to be FAA certified to teach and to grant 
a pilot's license. And if we have not learned this, I do not 
think we learned anything.
    I know the back of all of this is money. People have the 
lust to get the money, and it is cheating. It has got to stop 
because the Nation's security is at stake.
    I wanted to ask one question here. Mr. Woods, one of the 
most troubling things that GAO found was that--and I would like 
to quote from the report--``SEVP management has not referred 
potentially criminal cases to the enforcement arm in accordance 
with ICE's procedures.'' And that is CTCEU, which is the 
criminal unit. I gather relations are very bad between them. 
What can you say about that?
    Mr. Woods. I would disagree with that. I would say that the 
relations maybe in the past when they were part of two 
different divisions were strained because there was a lack of 
communication. But now that they are both housed within the 
National Security Investigations Division and I oversee both 
units, I ensure that there is crossover of our personnel, that 
agents are working in with the adjudicators. We set up over the 
past two years a School Exploitation Section, which focuses 
solely on school fraud. We set up the SEVP Operations and 
Analysis Section, which looks at the compliant schools.
    Senator Feinstein. Let me stop you. So you disagree with 
everything on pages 33 and 34 of the GAO report. Is that 
correct?
    Mr. Woods. I do not disagree with everything. I am just 
saying I disagree that there is a lack of communication. I 
think communication has enhanced over the period of the last 
number of years, and I think we are working toward making one 
fluid step. The compliance list is shared with our enforcement 
program to ensure that if there are cases where we feel there 
are significant risk factors that we want to send investigators 
out to look at schools, we do.
    Senator Feinstein. Okay. Let me read something. ``However, 
in our interviews with eight ICE field offices, field 
investigators at two offices gave examples of SEVP officials' 
continuing administrative activities when asked to cease such 
activity. In one case, investigators stated that the target and 
owner of a flight school became suspicious of increased 
attention by SEVP officials and fled the United States in 2011 
to avoid prosecution. Our review confirms that the SEVP office 
was aware of the criminal investigation but continued to take 
administrative actions.
    ``In another ongoing case in California, field 
investigators stated that SEVP officials conducted a site visit 
to an institution following an owner's indictment after the 
local ICE field office investigators instructed SEVP to stop 
administrative activities.''
    Mr. Woods. And I would agree that there are some hiccups 
out there----
    Senator Feinstein. Hiccups?
    Mr. Woods [continuing]. Where communication has failed. We 
have developed a new ``Use These Lessons Learned.'' We have 
developed a ``School Fraud Handbook'' at the end of 2010, 
beginning of 2011, to ensure that there is proper communication 
between both our enforcement and administrative programs. We 
are----
    Senator Feinstein. Sir, you are into process. We need to 
get into enforcement. I think that is the difference between 
us. I was where you were 10 years ago, but it has not worked. 
Nothing has changed, and the statistics and the GAO report 
indicates that.
    You know, at some point, I think you have got to accept the 
reality of it, and the reality is your failure to complete the 
mission.
    I am very frustrated. I do not usually talk this way.
    Chairman Schumer. Keep going. That is true. She is one of 
the most polite Senators.
    Senator Grassley. It is probably an institutional problem 
as opposed to Mr. Woods' problem. I mean, it is an 
institutional problem, but he has got to help us solve it.
    Senator Feinstein. Well, that is right. As you look through 
this and you look at the ICE response, you know, ICE will seek 
to withdraw schools, ICE agreed that SEVP adjudicators should 
verify all in lieu of, ICE noted that case files may be 
missing, ICE is developing a quality assurance process. It goes 
on and on and on, and nothing changes.
    Chairman Schumer. Exactly. And the frustration we all have 
is this created a national crisis, and it is 11 years later, 
and we are still sort of developing things. Can you explain in 
common-sense, plain language, Mr. Woods, not, in all due 
respect, a bureaucratic answer, why is it 11 years later we 
have not had any prosecutions, we have had still a large number 
of the schools not addressed or looked at or examined? What is 
going on here? What is wrong? Do you lack the resources? Do you 
lack the will? Is it not a high enough priority of the agency?
    Senator Feinstein. Or is it philosophy?
    Chairman Schumer. Okay. Good question. Is it philosophy? 
Can you please give us a frank answer on this? We want to know 
what is wrong so we can help correct it. We are not out to just 
flagellate anybody.
    Mr. Woods. I understand, Chairman Schumer. I feel your same 
frustration. I have been in this position for three years, and 
I have taken every effort we can to enhance and try to better 
the communication between our administrative SEVP program and 
the CTCEU, which is the basic headquarters element that talks 
to these agents that are out in the field and assists them on 
their investigations.
    Chairman Schumer. Well, is that--I am sorry to interrupt. 
Is the headquarters not giving the agents enough of an impetus 
to focus on this issue? Do they say there are other issues that 
are much more important?
    Mr. Woods. No, that is not----
    Senator Feinstein. The agents are not cooperating.
    Mr. Woods. The agents are cooperating. In 2009, with the 
increased fee rule and the schools and students, we were able 
to obtain further resources to go out and combat the school 
fraud issues. Prior to that, the focus of the CTCEU, which was 
the CEU at the time, Compliance Enforcement Unit, was to focus 
on the individuals, the individual students that may cause a 
national security threat. We have expanded that program----
    Chairman Schumer. Instead of the schools.
    Mr. Woods. Instead of schools. We have expanded that 
program at this point----
    Chairman Schumer. And that lasted about seven years until 
you came in? Is that what you are saying?
    Mr. Woods. That is when we had the resources to move 
forward on that issue, and we obtained those resources, and we 
moved forward to where now we focus on the institutions that 
provide the pathways for the fraud, and we focus on those. And 
we have dedicated agents in the field that every day focus on 
this. I think that is why this Committee and others are 
interested in this school fraud issue because we have increased 
our prosecutions of these cases. We have gone after the 
designated school officials.
    Chairman Schumer. It is three years since 2010, and the GAO 
did not give you good grades, so how do you explain that?
    Mr. Woods. I am not saying we do not have a long way to go. 
We are moving forward, and we are trying to make the 
corrections, both administratively and through either procedure 
and policy, to ensure that we meet GAO's requirements to all 
their eight recommendations, to ensure that as we recertify 
institutions we keep proper records.
    Chairman Schumer. When will you meet these eight 
recommendations given your present level of resources and 
focus?
    Mr. Woods. As I said, you know, we are moving forward. We 
are processing somewhere between----
    Chairman Schumer. No, we need--that is not a good--when? A 
year? Five years?
    Mr. Woods. The recertification process will take two years 
to complete of all the schools. Through that process, we will 
have the recordkeeping in order. We are in the process of 
hiring a new records manager. That will be done this year. We 
are in the process of developing risk factors which will be in 
place before the closeout of this fiscal year. So I would say 
for probably seven of the eight recommendations, with the end 
of this calendar year we will have them all in place. As for 
the recertification program and getting that up to 100 percent, 
it is a two-year process that will be rotating and continuing 
on.
    Chairman Schumer. So, in other words, all eight--at least 
you will have rules in place to meet all eight GAO 
recommendations by the December 31, 2012?
    Mr. Woods. Correct.
    Chairman Schumer. That is a little bit--and then you say it 
will take you two years to get compliance to implement those 
rules and regulations?
    Mr. Woods. It will take two years to recertify all the 
schools. When you talk about 10,000 institutions and doing 400 
a month, that takes about two years to go through the whole 
process. And then we start again and start with----
    Chairman Schumer. Okay. And just one other, and then I will 
defer to my colleagues. You know, one of the things that GAO 
recommended is that you do things--you spend the same amount of 
time investigating Stanford as you do investigating a Tri-
Valley Flight School. Why don't you start looking at risk to 
our country and focus on the schools that, you know, just on a 
first look are the ones who would create the danger?
    Mr. Woods. Right now we have developed a risk scorecard for 
institutions that go on to our compliance list. We are 
enhancing that, working with DHS in the high-track process, 
and----
    Chairman Schumer. Is that being used now, that risk 
scorecard?
    Mr. Woods. Yes, it is.
    Chairman Schumer. Since when?
    Mr. Woods. Since January of this year.
    Chairman Schumer. I see. Pretty reasonable. Okay. I have 
asked a lot of questions. Let me defer to either of my 
colleagues.
    Senator Grassley. Can I go ahead, please?
    Chairman Schumer. Yes, please.
    Senator Grassley. You know, we have talked about this since 
September 11, 2001, but this is a problem that goes back to the 
1993 World Trade Center bombing because we had student visa 
violators involved in that, and we created SEVIS as a result of 
the 1993 incident and I know, Mr. Woods, you are connected or 
you know a lot about that because you were on the Joint 
Terrorism Task Force from 1993 to 1995. And I do not say that 
to embarrass anybody. I just say that you have a background and 
you know what this problem is. And I wonder if you are not 
connected with a lot of bureaucrat initiative, and you said you 
have been working hard, and I do not question that you probably 
have been working hard. But if heads do not roll--you know, you 
put out instructions, and if heads do not roll, you are never 
going to get any change of behavior.
    Let me lead to a question for you, Mr. Woods, dealing with 
designated school officials. We have learned that there are 
some of these DSOs who are bad actors and commit fraud in order 
to enroll foreign students. While these school officials must 
be U.S. citizens or legal permanent residents, there is no 
requirement that the school conduct a background check of them. 
Some educational institutions voluntarily do do that.
    Why doesn't ICE require all schools who participate in the 
Student and Exchange Visitor Program to undergo background 
checks? And would you commit to issue a rule that would require 
background checks of DSOs?
    Mr. Woods. In working with our Office of Policy, I would 
recommend to them that we issue a rule, absent legislation 
requiring it, that we do a background check on all designated 
school officials. That is one of the recommendations we have 
pending our policy program.
    Senator Grassley. So do I interpret that to mean you are 
already in the process of issuing such a rule?
    Mr. Woods. We are recommending that to our Office of 
Policy, yes.
    Senator Grassley. Okay. Is that moving along fast enough 
that it is going to become a rule, or what is the impediment to 
getting that done in a certain time frame?
    Mr. Woods. Again, there are competing priorities on 
rulemaking and which rules are going to be adopted by the 
Department, and we fall in line with the rest of the Department 
on policies and rules.
    Senator Grassley. Okay. For you, Ms. Gambler, do you think 
that the SEVP office lacks an enforcement-minded approach that 
is required of an agency whose mission is to protect the 
homeland?
    Ms. Gambler. As part of our review, we did hear from the 
criminal investigators in CTCEU that they were concerned that 
SEVP has not focused enough on compliance and oversight. 
Certainly it is a shared responsibility between SEVP and the 
criminal investigators to identify potentially noncompliant 
schools--that would be on the part of SEVP--and referring that 
information to CTCEU when it becomes potentially criminal in 
nature.
    At the same time, the criminal investigative side can 
really help SEVP identify potential risks to the program that 
could help SEVP target its compliance activities and, do a 
better job of certifying schools, checking the evidence at 
certification, and providing ongoing monitoring for schools to 
ensure that they are still eligible to be in the program.
    Senator Grassley. Let me follow on something that would fit 
into what Senator Feinstein said about philosophy. In your 
view, is there more interest for the office to be a friend of 
the schools rather than a regulator?
    Ms. Gambler. We did not specifically look at that issue, 
Senator, but, again, we did hear some concerns from the 
criminal investigators in CTCEU that SEVP was not putting 
enough emphasis on its compliance and monitoring mission.
    Senator Grassley. Okay. I thank you.
    Chairman Schumer. Can we have Mr. Woods follow up on what 
Ms. Gambler said? Because it is right in line with both Senator 
Feinstein's and Senator Grassley's comments. What she is saying 
is your focus is sort of being more friends to the schools, 
helping them, as opposed to compliance and enforcement. Senator 
Feinstein asked about the attitude of people in the field on 
this issue. Would you address that, Mr. Woods?
    Mr. Woods. Certainly. CTCEU is composed of special agents, 
law enforcement individuals. The Student and Exchange Visitor 
Program is composed of adjudicators, program analysts, and 
support staff. SEVP and CTCEU do have complementary missions 
where SEVP does not need to provide support and service to the 
designated school officials who maintain the SEVIS data base. 
They work hand in hand with school officials and the 
universities to ensure that they are complying with the law, 
complying with the regulations to bring students in. They have 
to strike a balance between the friendly side to the 
universities and the enforcement side to the universities.
    Additionally, where our special agents can focus strictly 
on criminal investigations, we move forward on those cases and 
have a strict enforcement mode. So SEVP does have a dichotomy 
where they need to balance both being a friend to the school 
and helping them to comply and also identifying sources of 
fraud that are systematic or egregious that we can enforce.
    Chairman Schumer. Senator Feinstein.
    Senator Feinstein. I am just very dissatisfied with the 
progress. I think this a very good GAO report, and what I am 
going to do--and it would be wonderful if you wanted to do it--
is send this report with a letter from us that we have been 
watching this situation, that we are really concerned about the 
lack of progress that has been made, the vulnerability, the 
over-attention to process.
    Let me read something on page 36 of the report. ``While the 
coordination standard operating procedure for SEVP, CTCEU, and 
ICE field offices requires that SEVP refer allegations or leads 
revealing possible criminal violations to the Enforcement Unit 
in a timely manner, the procedure does not have criteria for 
determining when certain noncompliant activity becomes 
potentially criminal.'' It goes on and on.
    ``The SEVP Compliance Unit first shared its compliance case 
log with CTCEU in October 2011. Upon review of this 
information, CTCEU officials stated that several of the 
compliance cases could involve potential criminal violations. 
CTCEU officials identified examples of potentially criminal 
violations, including designated school officials sharing SEVIS 
passwords, a school not holding class but reporting attendance, 
a school reporting its own address as students' addresses, and 
a school charging additional fees for showing students as 
compliant.''
    And it goes on like that.
    It is so elemental, and yet--and it was elemental 10 years 
ago, that I really think we need to bring the Secretary's 
attention to the failure of the system and ask for major 
reforms, and particularly an enforcement mode.
    Chairman Schumer. I agree.
    Senator Feinstein. Because these case studies--and it goes 
on and on and on. The sham----
    Chairman Schumer. You said process, process, process.
    Senator Feinstein. Yes, exactly. That is my----
    Chairman Schumer. I think it is a good idea to send a 
letter. We will ask Senator Grassley and Senator McCaskill as 
sponsors to do it.
    Now, I have a few more related questions. Some people say--
and I would ask Ms. Gambler this--that the penalties are so low 
that the enforcement part of ICE does not bother. Do you think 
the penalties--and I guess I would ask Mr. Woods, too. We have 
a two-year mandatory sentence for false accreditation and 
reporting, up to 15. Will those be sufficient? Are they tough 
enough? And will they then get Enforcement to do more? Because 
one of the ex--one of the reasons--I was going to say 
``excuses.'' But one of the reasons they say is the penalties 
are not tough enough to merit criminal prosecution. Any 
comments on that, Ms. Gambler?
    Ms. Gambler. Mr. Chairman, we did not look at the penalty 
issue as part of our review. What we did focus on was really 
the extent to which ICE was effectively implementing the 
existing controls and processes it has in place.
    Chairman Schumer. Did you come across any of this, you 
know, that the penalties were too weak from any of the people 
you interviewed?
    Ms. Gambler. We did not hear that as a theme as part of our 
work, Mr. Chairman.
    Chairman Schumer. Mr. Woods. Existing penalties, not the 
ones in our bill.
    Mr. Woods. The Sentencing Guidelines for this type of 
activity are low in comparison, maybe, with other crimes. But 
that does not affect the amount of resources that we put at 
this program. We have dedicated agents that fall into the fee-
funded rules that----
    Chairman Schumer. Not you. It is the prosecutors. They say, 
``Hey, to go through a whole court case for a small slap on the 
wrist is not worth it to us.'' Is that a factor?
    Mr. Woods. That is a factor in every United States 
Attorney's----
    Chairman Schumer. Do you think the penalties----
    Mr. Woods [continuing]. Office in the Nation.
    Chairman Schumer [continuing]. We have are strong enough?
    Mr. Woods. Is what strong enough?
    Chairman Schumer. Are the penalties that we have in our 
bill strong enough to get the----
    Mr. Woods. Any enhancement in mandatory minimums usually 
brings----
    Chairman Schumer. Are these strong enough?
    Mr. Woods. I think it is an improvement.
    Chairman Schumer. Okay. Next, just one more. We are going 
to send you that in writing to get an official answer from your 
agency.
    Mr. Woods. Certainly.
    Chairman Schumer. And I would like you to show that to the 
Enforcement folks and let them answer it with you.
    Chairman Schumer. The last question I have, which Senator 
Feinstein and I discussed, is the issue of certification and 
not allowing non-certified--accredited, sorry, accreditation, 
certification of non-accredited institutions to take these 
students does have one difficulty. There are certain types of 
institutions of higher learning that do not have an 
accreditation process. Juilliard in my home State of New York 
would be one of those. We certainly want to let Juilliard take 
some foreign students. There are many talents musicians, 
singers, and whatever.
    Senator Feinstein. That is a music school.
    Chairman Schumer. Yes. It is one of the best in the 
country. And so maybe what we could do is say that there has to 
be accreditation, the way Senator Feinstein did, but allow 
schools to apply for an exception if there are no accreditation 
process. Obviously with flight schools there is with the FAA, 
so none of them would be exempt.
    What do you both think of that idea?
    Ms. Gambler. Again, I think that is really a policy 
decision. What would be key is ICE, as our work has shown, 
consistently implementing whatever kind of----
    Chairman Schumer. That is why we want to switch the burden 
of proof, so ICE has to implement unless there is an exception 
as opposed to doing it the other way.
    What do you think, Mr. Woods?
    Mr. Woods. I think that is similar to the approach we take 
right now, which we call in lieu of letters to show that the 
school's processes are accepted by other institutions that may 
be accredited and that they would take credits or the learning 
from that school. Like you said, there should be some 
exemptions, but I believe what we are doing and implementing 
based on the GAO report is validating to ensure that those 
letters and those----
    Chairman Schumer. No, but it is taking forever----
    Mr. Woods [continuing]. Documents are true.
    Chairman Schumer. We would rather do it the other way. If 
you do not have certification, you are out until you can prove 
you should be in, as opposed to let us at a snail's pace, as 
you even admitted, go through saying who is out and they are 
assumed to be in. What do you think?
    Mr. Woods. I would agree with you.
    Chairman Schumer. Oh, good. Okay. We are not happy with how 
ICE has handled this and SEVP has handled this, as you know. We 
hope that you will speed things up. We hope our legislation 
will help make things better for you. But we are not going to--
I know I speak for Senator Feinstein, who is passionate about 
this, as well as Senator Grassley, and I believe Senator 
McCaskill. We need real change here, and we will do it 
legislatively, but we will also do it with the letter that she 
suggested as well as oversight, continued oversight.
    So if you do not have any more questions, Senator, then I 
want to thank both witnesses. I want to thank you for an 
excellent report, Ms. Gambler, and I want to thank Mr. Woods 
for being here as well and answering our questions--many of 
them, quite frankly--which we appreciate.
    The record will stay open for seven days for additional 
written questions to be submitted by Committee Members, and the 
hearing is adjourned.
    [Whereupon, at 11:07 a.m., the Subcommittee was adjourned.]
    
    
    
    
    
    
    
                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Prepared Statement of Ranking Member Charles Grassley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Prepared Statement of Rebecca Gambler, Acting Director, Homeland 
     Security and Justice, U.S. Government Accountability Office, 
                             Washington, DC

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Prepared Statement of John P. Woods, Assistant Director, National 
    Security Investigations, Homeland Security Investigations, U.S. 
   Immigration and Customs Enforcement, U.S. Department of Homeland 
                       Security, Washington, D.C.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Questions

  Questions submitted by Senator Charles Grassley for Rebecca Gambler

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Questions submitted by Senator Charles Grassley for John P. Woods

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                Answers


Responses of Rebecca Gambler to questions submitted by Senator Grassley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Responses of John P. Woods to questions submitted by Senator Grassley 
                          have been redacted.


                                   [all]


</pre></body></html>
